U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 13, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Diana Garvey v. Denis R. McDonough, Secretary of Veterans Affairs,
S.Ct. No. 20-1532

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 29,
2021, and placed on the docket on May 4, 2021. The government’s response is due on June 3,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 5, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1532
GARVEY, DIANA
DENIS R. MCDONOUGH, SECRETARY OF
VETERANS AFFAIRS

ROBERT C. BROWN, JR.
TOMMY KLEPPER & ASSOCIATES, PLLC
702 WALL STREET
SUITE 100
P.O. BOX 721980
NORMAN , OK 73069
405-928-5055
BOBBROWN@TOMMYKLEPPERLAW.COM
KENNETH M. CARPENTER
CARPENTER, CHARTERED
1525 SOUTHWEST TOPEKA BOULEVARD
PO BOX 2099
TOPEKA, KS 66601
785-357-5251
KMCARPENTER@MINDSPRING.COM

